                                                                   C-IN-BLM-0050-2001

           United States Department of the Interior

                            Office of Inspector General
                                  Washington, D.C. 20240




                                                                          March 15, 2002

Memorandum

To:      Director, Bureau of Land Management

From:    Roger La Rouche
         Assistant Inspector General for Audits

Subject: Independent Auditors’ Report on the Bureau of Land Management’s Financial
         Statements for Fiscal Years 2001 and 2000 (No. 2002-I-0022)

        We contracted with KPMG LLP, an independent certified public accounting firm,
to audit the Bureau of Land Management’s (BLM) financial statements for fiscal year
2001. The contract required that KPMG conduct its audit in accordance with the
Government Auditing Standards issued by the Comptroller General of the United States
of America; Office of Management and Budget Bulletin (OMB) 01-02, Audit
Requirements for Federal Financial Statements; and the General Accounting
Office/President’s Council on Integrity and Efficiency Financial Audit Manual. The
Office of Inspector General (OIG) is responsible for the opinion on the balance sheet and
related notes for fiscal year 2000.

        In connection with the contract, we monitored the progress of the audit at key
points and reviewed KPMG’s report and related working papers and inquired of their
representatives. Our review, as differentiated from an audit in accordance with
Government Auditing Standards, was not intended to enable us to express, and we do not
express, opinions on the BLM’s financial statements or on conclusions about the
effectiveness of internal controls or on conclusions about compliance with laws and
regulations. KPMG is responsible for the auditors’ report on the fiscal year 2001
financial statements (see Attachment 1) and for the conclusions expressed in the report.
However, our review disclosed no instances where KPMG did not comply in all material
respects with Government Auditing Standards.

    In its audit report dated January 15, 2002, KPMG stated that in its opinion the BLM’s
financial statements for fiscal year 2001 present fairly, in all material respects, the
financial position of the BLM as of September 30, 2001, and its net cost of operations,
changes in net position, budgetary resources, and reconciliation of net cost of operations
to budgetary obligations for the year then ended in conformity with accounting principles
generally accepted in the United States of America. In our report dated January 15, 2002,
(Attachment 2) we stated that in our opinion the BLM’s fiscal year 2000 consolidated
balance sheet presents fairly, in all material respects, the financial position of the BLM as
of September 30, 2000, in conformity with accounting principles generally accepted in
the United States of America.

       KPMG found three reportable material weaknesses in internal controls and four
reportable conditions related to internal control over financial reporting. With regard to
compliance with laws and regulations, KPMG found BLM to be noncompliant with a
portion of the Federal Financial Management Improvement Act. Specifically, BLM’s
financial management systems did not substantially comply with the security and general
EDP controls requirements of OMB Circular A-130, Management of Federal Information
Resources and with certain Federal accounting standards.

       In its responses of February 6 and 28, 2002, and in subsequent discussions, BLM
concurred with Recommendations A, B, D, E, G, H, and I. The BLM partially concurred
with Recommendations C and F and provided alternative solutions. Based on the
response and additional information submitted, all nine recommendations are considered
resolved but not implemented. The nine recommendations will be referred to the
Assistant Secretary for Policy, Management and Budget for tracking of implementation.

         Section 5(a) of the Inspector General Act (5 U.S.C. App. 3) requires the OIG to
list this report in its semiannual report to the Congress.

        The Independent Auditors’ Report is intended for the information of the
management of BLM, the Office of Management and Budget, and the United States
Congress. The report, however, is a matter of public record and its distribution is not
limited.



Attachments (2)
                               Attachment 1




       A COPY OF THE

INDEPENDENT AUDITOR’S REPORT

IS ON THE PAGES THAT FOLLOW.
           707 Seventeenth Street
           Suite 2300
           Denver, CO 80202




                                                                          Independent Auditors’ Report

The Director of the Bureau of Land Management
  and the Inspector General of the Department of the Interior:
We have audited the accompanying consolidated balance sheet of the Bureau of Land Management (BLM)
as of September 30, 2001, and the related consolidated statements of net cost of operations, changes in net
position, and financing and the combined statement of budgetary resources for the year then ended
(hereinafter referred to as financial statements). The objective of our audit was to express an opinion on the
fair presentation of these financial statements. In connection with our audit, we also considered the BLM’s
internal control over financial reporting and tested the BLM’s compliance with certain provisions of
applicable laws and regulations that could have a direct and material effect on its financial statements.

Summary
As stated in our opinion on the financial statements, we concluded that the BLM’s financial statements as
of and for the year ended September 30, 2001 are presented fairly, in all material respects, in conformity
with accounting principles generally accepted in the United States of America.
Our consideration of internal control over financial reporting resulted in the following matters being
identified as reportable conditions:

A. Accounting for Property
B. Accounting for Intra-departmental Transactions
C. Accounting Effects of New Legislation

D. Timely De-obligation of Undelivered Orders
E. Helium Gas Inventory Examinations
F. Segregation of Duties Within the Collections and Billing System (CBS)

G. Information Technology Controls at Interior’s National Business Center
We consider reportable conditions A, B, and C, discussed above, to be material weaknesses.
The results of our tests of compliance with certain provisions of laws and regulations, exclusive of the
Federal Financial Management Improvement Act of 1996 (FFMIA), disclosed no instances of
noncompliance with laws and regulations that are required to be reported under Government Auditing
Standards issued by the Comptroller General of the United States, and Office of Management and Budget
(OMB) Bulletin No. 01-02, Audit Requirements for Federal Financial Statements. However, our tests of
compliance with FFMIA section 803(a) requirements disclosed instances where the BLM’s financial
management systems did not substantially comply with the following:

H. Federal Financial Management Systems Requirements at Interior’s National Business Center




           KPMG LLP. KPMG LLP, a U.S. limited liability partnership, is
           a member of KPMG International, a Swiss association.
I.   Federal Accounting Standards

The following sections discuss our opinion on the BLM’s financial statements, our consideration of the
BLM’s internal control over financial reporting, our tests of the BLM’s compliance with certain provisions
of applicable laws and regulations, and management’s and our responsibilities.

Opinion on the Financial Statements

We have audited the accompanying consolidated balance sheet of the BLM as of September 30, 2001, and
the related consolidated statements of net cost of operations, changes in net position, and financing and the
combined statement of budgetary resources for the year then ended.

In our opinion, the financial statements referred to above present fairly, in all material respects, the
financial position of the BLM as of September 30, 2001, and its net cost of operations, changes in net
position, budgetary resources, and reconciliation of net cost of operations to budgetary obligations for the
year then ended in conformity with accounting principles generally accepted in the United States of
America.

The information in the management’s discussion and analysis, stewardship assets, and deferred
maintenance sections are not a required part of the financial statements, but is supplementary information
required by the Federal Accounting Standards Advisory Board or OMB Bulletin No. 97-01, Form and
Content of Agency Financial Statements, as amended. We have applied certain limited procedures which
consisted principally of inquiries of management regarding the methods of measurement and presentation
of this information. However, we did not audit this information and, accordingly, we express no opinion on
it.

Our audit was conducted for the purpose of forming an opinion on the financial statements taken as a
whole. The information in the supplementary statement of budgetary resources by major budget accounts is
presented for purposes of additional analysis and is not a required part of the financial statements. Such
information has been subjected to the auditing procedures applied in the audit of the financial statements
and, in our opinion, is fairly stated, in all material respects, in relation to the financial statements taken as a
whole.

Internal Control Over Financial Reporting

Our consideration of internal control over financial reporting would not necessarily disclose all matters in
the internal control over financial reporting that might be reportable conditions. Under standards issued by
the American Institute of Certified Public Accountants, reportable conditions are matters coming to our
attention relating to significant deficiencies in the design or operation of the internal control over financial
reporting that, in our judgment, could adversely affect the BLM’s ability to record, process, summarize,
and report financial data consistent with the assertions of management in the financial statements.

Material weaknesses are reportable conditions in which the design or operation of one or more of the
internal control components does not reduce to a relatively low level the risk that misstatements, in
amounts that would be material in relation to the financial statements being audited, may occur and not be
detected within a timely period by employees in the normal course of performing their assigned functions.
Because of inherent limitations in internal control, misstatements due to error or fraud may nevertheless
occur and not be detected.

We noted certain matters, discussed below, involving the internal control over financial reporting and its
operation that we consider to be reportable conditions. We believe that the following reportable conditions
are material weaknesses:

                                                        2
A.   Accounting for Property
     The BLM does not have adequate internal control to ensure property balances are materially accurate
     and adequately supported by documentation. As part of our audit, we found weaknesses in the
     following areas:
     •   Construction in progress. During fiscal year (FY) 2001, the BLM transferred approximately $21
         million out of construction in progress. However, a large amount of the transfer had already been
         recorded in property in previous years. This resulted in current year property transfers being out of
         balance and property being overstated by $15 million in the prior fiscal year. The cause of these
         errors stem from a lack of communication between the accounting staff who transfer amounts
         among construction in progress and property accounts. Further, the BLM does not have a formal
         process to reconcile transfers between construction in progress and property accounts.
     •   Depreciation expense. Our audit revealed significant delays in the recording of property in the
         financial accounting records from the time property was originally placed into service. When
         delays span fiscal years, depreciation catch-up provisions are recorded in the year property is
         reflected in the financial accounting records. This resulted in a $1.6 million overstatement of
         depreciation expense in the current year and understatements of expense in prior fiscal years. The
         cause of these errors stem from a lack of communication between users of property and those
         accounting for property.
     •   Documentation of property acquisitions and disposals. The BLM did not have adequate source
         documents to support the cost of certain items capitalized and disposed of during FY 2001. We
         believe these conditions exist because of a lack of reconciliations of property additions and
         deletions to supporting documents.
     Recommendation
     The BLM should improve its policies and procedures to ensure additions and deletions to property
     records are recorded timely, consistently among property and construction in progress accounts, and
     are supported by adequate documentation. Improvements should include enhanced communication
     between accounting staff and users of property to prevent misstatements of asset and depreciation
     expense amounts. Further, BLM should implement procedures to reconcile property additions and
     deletions to supporting cost documents, and the documentation should be maintained to provide a
     clear audit trail of amounts added and deleted.
     BLM Response
     BLM concurs with the finding and recommendation. An accountant position is being established in
     the property area to coordinate all property/accounting issues. Revised procedures have been
     established to provide appropriate and timely documentation to the accounting staff regarding
     additions and proposed adjustments to the construction in progress general ledger account and to
     collect source documentation for each project. In FY 2002, BLM will implement improved asset
     reconciliation procedures to ensure that all property additions and deletio ns are recorded in the proper
     fiscal year to avoid misstatements of asset and depreciation expense amounts. An Instruction
     Memorandum (IM) will be issued to field offices reiterating the requirement to review the Fixed
     Assets (FA) Personal Property system to obtain and appropriately post the original acquisition cost
     recorded in FA on source disposal documents.

B.   Accounting for Intra-departmental Transactions
     As part of its reporting process, the BLM is required to reconcile intra-bureau transfers and intra-
     departmental transactions between Department of the Interior bureaus (referred to as “trading

                                                      3
     partners”). Subsequent to the close of the BLM’s accounting records for FY 2001, the BLM’s intra-
     bureau transfers were significantly out of balance, and the Bureau had a large number of asset,
     liability, revenue and expense transaction variances with other Department of the Interior bureaus.
     Out of balance transfers and variances with trading partners indicate misstatements in financial
     reporting. Further, the majority of the reconciliation process for intra-departmental transactions occurs
     at year-end, requiring a significant amount of accounting staff resources.
     Recommendation
     The BLM should implement procedures to identify and correct out of balance intra-bureau transfers.
     Further, the BLM, in conjunction with other Department of the Interior bureaus, should implement
     formal policies and procedures for the proper reconciliation and correction of variances in trading
     partner transactions. These procedures should not only be performed at year-end, but also on a
     periodic basis throughout the year.
     BLM Response
     The BLM National Business Center (BLM NBC) currently has a process in place to identify and
     correct out of balance intra-governmental variances on a quarterly basis. However, due to the effort
     and cooperation needed from other agencies, as well as the financial statements being done only on an
     annual basis, the majority of the variance reconciliation work is performed at year-end. With OMB
     requiring financia l statements semi-annually in FY 2002 and quarterly beginning in FY 2003, greater
     emphasis will be placed on the intra-governmental variance reconciliation process to be performed on
     a quarterly basis.
     Even though the intra-governmental variance reconciliation process will be done to a greater extent on
     a quarterly basis, it will continue to be a labor intensive, time consuming, manual process. This is due,
     in part, to the limitations of the Federal Financial System (FFS). Because this process is quite labor
     intensive, some agencies have difficulties devoting the necessary resources to completely reconcile
     intra-governmental variances in a more desired time frame. This results in the intra-governmental
     variance reconciliation process not only being an issue at the BLM, but also a material weakness at
     the Department of the Interior and within the United States Government as a whole.
C.   Accounting Effects of New Legislation
     Traditionally, the BLM has made timber payments to counties before the end of the fiscal year, and
     payments were based on timber collections in its undistributed collections liability account. During
     FY 2001, new legislation was enacted that affected the amount, timing and source of the timber
     payments. The new legislation called for payments to be made as soon as practicable after the end of
     the fiscal year, and any shortfalls from traditional payments were to be funded by U.S. Treasury
     general funds, which are appropriated for in the year of the payment. Based on generally accepted
     accounting principles, it was determined that timber payments made in the beginning of FY 2002 met
     the criteria for accrual in FY 2001. However, the BLM did not initially accrue a liability for the
     Treasury-funded amounts until an audit adjustment of approximately $94 million was proposed. The
     lack of an initial accrual, combined with the size of the audit adjustment, evidences that the BLM does
     not have adequate procedures in place to identify all the significant accounting effects of new
     legislation.

     Recommendation

     The BLM should implement procedures to thoroughly assess the accounting effects of new
     legislation. Such reviews should focus on transactions in which future funding sources will be
     provided for past events and amounts that meet the accrual criteria under generally accepted
     accounting principles.

                                                      4
     BLM Response

     BLM partially concurs with the finding and recommendation. BLM concurs that an accrual should
     have been made for the Treasury-funded amount due on the Secure Rural Schools and Community
     Self-Determination Act of 2000 (PL 106-393), based on the FY 2001 collections. However, BLM
     does not fully concur with the recommendation to implement procedures to thoroughly assess the
     accounting effects of new legislation. BLM currently has procedures and policies in place and
     established a team in early FY 2001 to review and assess the accounting effects of new legislation. At
     the close of FY 2001, the final procedures and accounting models for PL 106-393 were still in the
     process of being implemented. Decisions were still being made by Treasury and OMB regarding the
     proper methodology to be used for implementing this law and determining how the transfer of funds
     would be handled on BLM’s books and its subsequent reporting on regulatory reports. With all of the
     unresolved issues that surrounded this new law at year end, the accrual was not done for the portion of
     the liability that would be funded in FY 2002 by an appropriation from Treasury.

     Beginning in FY 2002, assuming that all the information necessary to calculate the payments is
     received timely, timber payments as required by PL 106-393 will be routinely accrued at year end. If
     all of the required information is not available in time to book an actual accrual in FFS prior to
     closing, then an estimated accrual will be made and entered in FFS.

We noted the following reportable conditions that are not considered to be material weaknesses:

D.   Timely De -obligation of Undelivered Orders

     During FY 2001, the BLM developed new undelivered order reporting mechanisms and issued several
     new policies concerning the timely de-obligation of undelivered amounts. However, BLM field office
     personnel have not fully implemented these policies. Our audit found instances of undelivered orders
     outstanding at year-end that should have been de-obligated. A lack of a thorough and timely review of
     undelivered orders can result in an overstatement of outstanding obligation balances at year-end.

     Recommendation

     The BLM should continue to improve its review procedures for undelivered orders to ensure amounts
     are de-obligated in a timely manner. Improvements should include revised procedures to more closely
     monitor field personnel actions related to undelivered orders.

     BLM Response
     BLM agrees with the finding and recommendation. During FY 2001, the BLM developed four new
     undelivered order (UDO) reports and issued several policies and procedures that resulted in the
     recovery of over $32 million. The new BLM policy requires a quarterly review and reporting process
     for unliquidated procurement awards. A UDO Report Coordinator was established to coordinate this
     effort and ensure compliance by the field offices. An annual review of certain non-procurement
     transactions including travel, relocation, training, utilities, miscellaneous obligations, and federal
     obligations was implemented. An IM was issued establishing an annual review of non-procurement
     UDO’s, including property, printing, motor vehicle, and reimbursable work authorizations. The BLM
     will continue to address the review requirements to the field and BLM NBC personnel through e-
     mails, memorandums, and conference calls. Presentations will be made on this topic at the
     Procurement Conference, the Administrative Officer training and the BLM Executive Leadership
     Team meetings in order to raise awareness to UDO issues among the highest level of BLM
     Management.


                                                     5
E.    Helium Gas Inventory Examinations
      The BLM accounts for its helium gas stockpile on a perpetual basis and verifies inventory records
      through periodic internal engineering studies. For the past eight years, differences between the studies
      and the perpetual records have existed. The BLM has not adjusted its records for these differences
      because it believes the studies are not accurate enough to support an adjustment, but acknowledges
      more refined studies can be performed. While it is possible the differences could stem from the
      inaccuracies of the studies, the differences may also indicate that inventory adjustments should be
      made. Generally accepted accounting practices require organizations to conduct periodic physical
      inventories and adjust recorded amounts to physical inventory results.
      Recommendation
      The BLM should thoroughly investigate differences between the results of its helium internal
      engineering studies and its perpetual inventory records. Future helium inventory procedures should
      include performing a more refined and robust engineering study, and differences should be reflected
      as adjustments to helium inventory perpetual records. The BLM should consider utilizing an
      independent third party engineering specialist in conducting future helium studies.
      BLM Response
      BLM concurs with the finding and recommendation. The BLM will perform a review of historical
      data to resolve differences between internal studies and perpetual inventory records. The BLM will
      also conduct pressure transient analysis tests on selected wells in the Cliffside Field for the purpose of
      more accurately estimating the average reservoir pressure. The BLM will solicit an independent third
      party engineering specialist to confirm reservoir measurement methodologies.
F. Segregation of Duties Within the Collections and Billing System (CBS)
     The BLM has not taken appropriate actions to ensure a proper segregation of duties within the CBS
     application. Segregation of duties is violated in that a single person is responsible for multiple
     functions within a process. Specifically, 250 users have the ability to perform mailroom entry, deposit
     cash and checks and initiate transactions. A proper segregation of duties is necessary to help eliminate
     opportunities to conceal errors or irregularities.

     Recommendation

     The BLM should develop policies and procedures governing the identification, assignment, and
     monitoring of conflicting functions within the CBS application. Where complete segregation is not
     feasible, policies and procedures should require mitigating controls in the form of supervisory approval
     and/or periodic review of the specific transactions or groups of transactions. These policies and
     procedures should be incorporated into a comprehensive application security plan for CBS under
     Personnel Security .

     BLM Response

     The BLM partially agrees with the finding and recommendation. BLM agrees that there are 250 CBS
     users with the ability to perform mailroom entry, depos it cash and checks, and initiate new transactions.
     Considering there are approximately 1,350 CBS users bureau-wide, and there are approximately 200
     offices that perform collections, the number of users with the functions listed above may be within a
     tolerable range. There are several reasons for a person having the ability to perform all functions.
     Initially, BLM will perform a complete review of all active users and revise the roles of users as
     appropriate. Thereafter, a review will be part of the semi-annual review of collections. For offices that
     do not have resource levels that support full segregation of duties, we will issue policies and procedures

                                                       6
   for mitigating controls in the form of supervisory approval and/or periodic reviews. Compliance with
   these policies and procedures will be reviewed during the BLM NBC’s annual financial procedures
   reviews.

G. Information Technology Controls at Interior’s National Business Center

    The Interior National Business Center (Interior NBC) administers several of the BLM’s financial
    management systems, including the Federal Personnel and Payroll System (FPPS), Federal Financial
    System (FFS), Hyperion, and the Interior Department Electronic Acquisitions System (IDEAS).
    Although Interior NBC has recently improved the security and controls over these information
    systems, Interior NBC needs to continue improvements in the areas of entity-wide security planning,
    configuration of operating systems, system software controls, software development and change
    controls, and service continuity. Weaknesses in these control areas could effect the BLM’s ability to
    prevent and detect unauthorized changes to its financial information and increases the BLM’s need for
    more efficient manual controls to monitor and reconcile financial information.

   Recommendation

   We recommend that the BLM annually obtain assurance (similar to a SAS 70 Type II report) from
   Interior NBC that adequate security and controls are in place over the financial management systems.

   BLM Response

   The BLM recognizes the importance of the Interior NBC continuing to improve its security procedures
   and practices. BLM will request copies of their annual SAS 70 report to determine the progress they are
   making and the potential effect, if any, the report’s observations may have on BLM’s financial
   integrity.

A summary of the status of the prior year material weakness is included as exhibit I. We also noted other
matters involving the internal control over financial reporting and its operation that we have reported to the
management of the BLM in a separate letter dated January 15, 2002.

Compliance With Laws and Regulations

The results of our tests of compliance with the laws and regulations described in the responsibilities section
of this report, exclusive of FFMIA, disclosed no instances of noncompliance that are required to be
reported herein under Government Auditing Standards or OMB Bulletin No. 01-02, Audit Requirements for
Federal Financial Statements.

The results of our tests of FFMIA disclosed instances, described below, where the BLM’s financial
management systems did not substantially comply with the federal financial management systems
requirements and federal accounting standards.

H. Federal Financial Management Systems Requirements at Interior’s National Business Center

    As discussed in the section of our report entitled “Internal Control over Financial Reporting,” Interior
    NBC, which administers several of the BLM’s financial management systems, needs to improve its
    electronic data processing (EDP) security and general control environment. Interior NBC has not
    finalized and communicated an entity-wide security plan; has not configured the operating systems to
    provide optimal security and protection and to limit access to sensitive datasets and libraries; has not
    fully established system software controls that limit and monitor access to the programs and sensitive
    files; has not fully developed or segregated procedures for controlling changes over application

                                                      7
    software; and needs to improve maintenance of its off-site storage records. As a result, the BLM does
    not substantially comply with the security and general EDP control requirements of OMB Circular
    A-130, Management of Federal Information Resources.

    Recommendation

    We recommend that the BLM annually obtain assurance (similar to a SAS 70 Type II report) from
    Interior NBC that adequate security and controls are in place over the financial management systems.

    BLM Response

    The BLM recognizes the importance of the Interior NBC continuing to improve its security procedures
    and practices. BLM will request copies of their annual SAS 70 report to determine the progress they are
    making and the potential effect, if any, the report’s observations may have on BLM’s financial
    integrity.

I. Federal Accounting Standards

    The BLM is required to prepare its financial statements in accordance with federal accounting
    standards. As discussed in the section of our report entitled “Internal Control over Financial
    Reporting,” we identified material weaknesses that affected the BLM’s ability to prepare its financial
    statements and related disclosures in accordance with federal accounting standards. Specifically, we
    determined that the BLM needs to improve its accounting for property, intra-departmental transactions,
    and the effects of new legislation. The foregoing material weaknesses in internal control are also an
    indication of noncompliance with FFMIA provisions relating to federal accounting standards.

    Recommendation

    We recommend that the BLM strengthen its procedures and internal control to ensure that its financial
    statements and related disclosures are prepared in accordance with federal accounting standards.

    BLM Response

    As discussed in responding to reportable conditions, A, B, and C above, the BLM will work to
    strengthen its procedures and internal control to insure that its financial statements and related
    disclosures are prepared in accordance with federal accounting standards.

The results of our tests disclosed no instances in which the BLM did not substantially comply with the
United States Government Standard General Ledger at the transaction level.
Responsibilities

Management’s Responsibility

The Government Management Reform Act of 1994 (GMRA) requires a federal agency to report annually
to Congress on its financial status and any other information needed to fairly present its financial position
and results of operations. To meet the GMRA reporting requirements, the BLM prepares annual financial
statements.

Management is responsible for:

•   Preparing the financial statements in conformity with accounting principles generally accepted in the
    United States of America;

                                                     8
•   Establishing and maintaining internal control over financial reporting, required supplementary
    stewardship information, and performance measures; and

•   Complying with laws and regulations, including FFMIA.

In fulfilling this responsibility, estimates and judgments by management are required to assess the expected
benefits and related costs of internal control policies.

Auditors’ Responsibility

Our responsibility is to express an opinion on the fiscal year 2001 financial statements of the BLM based
on our audit. We conducted our audit in accordance with auditing standards generally accepted in the
United States of America, the standards applicable to financial audits contained in Government Auditing
Standards, issued by the Comptroller General of the United States, and OMB Bulletin No. 01-02. Those
standards and OMB Bulletin No. 01-02 require that we plan and perform the audit to obtain reasonable
assurance about whether the financial statements are free of material misstatement.

An audit includes:

•   Examining, on a test basis, evidence supporting the amounts and disclosures in the financial
    statements;

•   Assessing the accounting principles used and significant estimates made by management; and

•   Evaluating the overall financial statement presentation.

We believe that our audit provides a reasonable basis for our opinion.

In planning and performing our fiscal year 2001 audit, we considered the BLM’s internal control over
financial reporting by obtaining an understanding of the BLM’s internal control, determining whether
internal control had been placed in operation, assessing control risk, and performing tests of controls in
order to determine our auditing procedures for the purpose of expressing our opinion on the financial
statements. We limited our internal control testing to those controls necessary to achieve the objectives
described in OMB Bulletin No. 01-02 and Government Auditing Standards. We did not test all internal
control relevant to operating objectives as broadly defined by the Federal Managers’ Financial Integrity
Act of 1982. The objective of our audit was not to provide assurance on internal control over financial
reporting. Consequently, we do not provide an opinion on internal control over financial reporting.

As required by OMB Bulletin No. 01-02, we considered the BLM’s internal control over required
supplementary stewardship information by obtaining an understanding of the BLM’s internal control,
determining whether these internal controls had been placed in operation, assessing control risk, and
performing tests of controls. Our procedures were not designed to provide assurance on internal control
over required supplementary stewardship information and, accordingly, we do not provide an opinion on
such controls.

As further required by OMB Bulletin No. 01-02, with respect to internal control related to performance
measures determined by management to be key and reported in management’s discussion and analysis, we
obtained an understanding of the design of significant internal controls relating to the existence and
completeness assertions. Our procedures were not designed to provide assurance on internal control over
performance measures and, accordingly, we do not provide an opinion on such controls.

As part of obtaining reasonable assurance about whether the BLM’s fiscal year 2001 financial statements
are free of material misstatement, we performed tests of the BLM’s compliance with certain provisions of

                                                     9
laws and regulations, noncompliance with which could have a direct and material effect on the
determination of financial statement amounts, and certain provisions of other laws and regulations
specified in OMB Bulletin No. 01-02, including certain provisions referred to in FFMIA. We limited our
tests of compliance to the provisions described in the preceding sentence, and we did not test compliance
with all laws and regulations applicable to the BLM. Providing an opinion on compliance with laws and
regulations was not an objective of our audit, and, accordingly, we do not express such an opinion.

Under FFMIA, we are required to report whether the BLM’s financial management systems substantially
comply with (1) Federal financial management systems requirements, (2) applicable federal accounting
standards, and (3) the United States Government Standard General Ledger at the transaction level. To meet
this requirement, we performed tests of compliance with FFMIA section 803(a) requirements.

Distribution

This report is intended for the information and use of the BLM and Department of the Interior’s
management, Department of the Interior’s Office of Inspector General, OMB, and the U.S. Congress, and
is not intended to be and should not be used by anyone other than these specified parties.




January 15, 2002




                                                   10
                                                                           Exhibit I



                         BUREAU OF LAND MANAGEMENT

                  Summary of the Status of Prior Year Material Weakness

                                    September 30, 2001


Ref      Condition                                               Status
BLM                                                              Repeated in FY 2001 as
2000-1   Timely de-obligation of undelivered orders              a reportable condition




                                             11
                                                                               Attachment 2

            United States Department of the Interior

                              Office of Inspector General
                                   Washington, D.C. 20240




                         Independent Auditors’ Report

To:        Director, Bureau of Land Management

Subject:   Bureau of Land Management’s Financial Statements for Fiscal Year 2000

We have audited the Bureau of Land Management’s (BLM) consolidated balance sheet
and related notes as of September 30, 2000. The objective of our audit was to express an
opinion on the fair presentation of the consolidated balance sheet. This financial
statement is the responsibility of the BLM, and our responsibility is to express an
opinion, based on our audit, on this financial statement.

We conducted our audit in accordance with the auditing standards generally accepted in
the United States of America; the standards for financial audits contained in Government
Auditing Standards, issued by the Comptroller General of the United States; and with
Office of Management and Budget Bulletin (OMB) 01-02, Audit Requirements for
Federal Financial Statements." These standards and OMB Bulletin No. 01-02 require
that we plan and perform our audit to obtain reasonable assurance as to whether the
accompanying balance sheet is free of material misstatement. An audit includes
examining, on a test basis, evidence supporting the amounts and disclosures contained in
the consolidated balance sheet and the accompanying notes. An audit also includes
assessing the accounting principles used and the significant estimates made by
management, as well as evaluating the overall balance sheet presentation. We believe
that our audit of the balance sheet provides a reasonable basis for our opinion.

In our opinion, the consolidated balance sheet referred to above presents fairly, in all
material respects, the financial position of the BLM as of September 30, 2000, in
conformity with accounting principles generally accepted in the United States of
America.

As discussed in Note 20 to the financial statements, the restated fiscal year 2000 balance
sheet shows that asset amounts for Inventory, Property and Equipment, and Unmatured
Timber Sales Contracts; and liability amounts for Deferred Credits have been restated. In
addition, certain amounts in the liability account for Undistributed Collections have been
reclassified from a non-Federal to an intra-governmental liability. The individual
changes are discussed in Notes 2, 6, 7, 9, 10, and 20.
In our report dated March 8, 2001, we expressed an opinion that BLM’s statement of net
cost for the year ended September 30, 2000 presented fairly, in all material respects, its
net cost of operations in conformity with accounting principles generally accepted in the
United States of America. As discussed in Note 1.O the BLM has restated its statement
of net cost for the year ended September 30, 2000 to conform with the presentation of net
cost for the year ended September 30, 2001. We did not audit the restated statement of
net cost for the year ended September 30, 2000 and, accordingly, we do not express an
opinion on this statement and related notes.




Roger La Rouche
Assistant Inspector General for Audits
March 8, 2001, except for Inventory, Property and Equipment, Unmatured Timber Sales
Contracts, Undistributed Collections; and Notes 2, 6, 7, 9, 10, and 20
as to which the date is January 15, 2002
